                                                     NA nONAL SCIENCE FOUNDAnON
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESnGA nONS

                                               CLO~EOUT            MEMORANDUM

Case Number: AIOOI0006                                                                       Page 1 of 1 ':
                                                                                                             II



                A University! contacted our office regarding an allegation of plagiarism by a former
         graduate studenf in his dissertation that contained NSF-funded research. The University
         conducted an inquiry. We referred, the investigation to the University.

                   The University found adequate'evidence to support a finding of plagiarism and pursued;
        'lin informal resolution. The agreement stated the University would review the thesis to determiI{e
         which sections needed attribution; the Subject would revise the thesis to include proper .
         attribution and the University would review and accept the changes; and the Subject would send
         apology letters, which the University would review and approve, to authors whose material was'
         included in the thesis.

                 The University provided us with a report at the conclusion of its process. We reviewed
         the report and evidentiary documents. We determined that most of the allegedly copied text was I
       . text from articles, which the Subject co-authored, and did not meet our definition of plagiarism.l,
       . We determined the remaining copied material was the result of a collaborative relationship and
         was only contained in an unfinalized document that did not name its author or its date. Thus, no
         evidence of plagiarism was found.

                   This case is closed with no further action taken.




         2




NSF OIG Form 2 (11/02)


                                                                                                         {
                                                                                                                  j
                                                                                                                  ;
